Audit Report



Return to the USDOJ/OIG Home Page




Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention, Cooperative Agreement Awarded to the National Council on Crime and Delinquency, Grant Number 1999-JN-FX-K007, Oakland, California

Report No. GR-90-05-001


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of a Cooperative Agreement awarded by the U.S. Department of Justice, Office of Juvenile Justice and Delinquency Prevention, to the National Council on Crime and Delinquency (NCCD), located in Oakland, California.  The purpose of this grant was to conduct a full process and outcome evaluation of employment programs funded under the Department of Labor's (DOL) Education and Training for Youth Offenders Initiative.

We tested the NCCD's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Of the $829,713 spent as of December 31, 2003, we found no errors in grant expenditures, however, we found that the NCCD maintained federal cash on hand for extended periods of time.

This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.